<html>
<title> - NOMINATIONS OF THE 108TH CONGRESS, FIRST SESSION</title>
<body><pre>[Senate Hearing 108-310]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-310

                  NOMINATIONS OF THE 108th CONGRESS, 
                             FIRST SESSION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                               __________

                             APRIL 1, 2003

                               __________

   RICHARD W. MOORE, TO BE INSPECTOR GENERAL OF THE TENNESSEE VALLEY 
                               AUTHORITY

RICKY DALE JAMES AND REAR ADM. NICHOLAS A. PRAHL, TO BE MEMBERS OF THE 
                      MISSISSIPPI RIVER COMMISSION

  JOHN PAUL WOODLEY, JR., TO BE ASSISTANT OF THE ARMY FOR CIVIL WORKS

ROBERT BOLDREY, MALCOLM B. BOWEKATY, HERBERT GUENTHER, RICHARD NARCIA, 
AND BRADLEY UDALL, TO BE MEMBERS OF THE BOARD OF VISITORS OF THE MORRIS 
 K. UDALL SCHOLARSHIP AND EXCELLENCE IN NATIONAL ENVIRONMENTAL POLICY 
                               FOUNDATION


 Printed for the use of the Senate Committee on Environment and Public 
                                 Works



91-746              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texaa                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 1, 2003
                           OPENING STATEMENTS

Baucus, Hon. Max , U.S. Senator from the State of Montana........    10
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1

                               WITNESSES

James, Ricky Dale, to be a Member of the Mississippi River 
  Commission.....................................................     5
    Committee questionnaire......................................    21
    Letter, Office of Government Ethics..........................    28
    Prepared statement...........................................    19
Moore, Richard W., to be Inspector General of the Tennessee 
  Valley Authority...............................................     5
    Committee questionnaire......................................    12
    Letter, Office of Government Ethics..........................    19
    Prepared statement...........................................    10
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     2
Woodley, John Paul, Jr., to be Assistant Secretary of the Army 
  for Civil Works................................................     4
    Prepared statement...........................................    38

                          ADDITIONAL MATERIAL

Statements:
    Boldrey, Robert Lance, to be a Member of the Board of 
      Trustees of the Morris K. Udall Scholarship and Excellence 
      in National Environmental Policy Foundation................    39
    Bowekaty, Malcolm, to be a Member of the Board of Trustees of 
      the Morris K. Udall Scholarship and Excellence in National 
      Environmental Policy Foundation............................    40
    Guenther, Herbert R., to be a Member of the Board of Trustees 
      of the Morris K. Udall Scholarship and Excellence in 
      National Environmental Policy Foundation...................    40
    Narcia, Richard R., to be a Member of the Board of Trustees 
      of the Morris K. Udall Scholarship and Excellence in 
      National Environmental Policy Foundation...................    40
    Prahl, Rear Adm. Nicholas Augustus, NOAA, to be a Member of 
      the Mississippi River Commission...........................    28
        Committee questionnaire..................................    31
        Letter, Office of Government Ethics......................    38
    Udall, Bradley Hunt, to be a Member of the Board of Trustees 
      of the Morris K. Udall Scholarship and Excellence in 
      National Environmental Policy Foundation...................    41

 
            NOMINATIONS OF THE 108TH CONGRESS, FIRST SESSION

                              ----------                              


                         TUESDAY, APRIL 1, 2003

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe [chairman of 
the committee] presiding.
    Present: Senators Inhofe, Jeffords, and Carper.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Good morning. The hearing will come to 
order.
    I would ask that our nominees be seated.
    The purpose of today's hearing is to consider the 
President's nominees for the position of the TVA, the 
Mississippi River Commission, and the Department of the Army.
    Mr. Richard Moore has been nominated by the President to be 
Inspector General of the Tennessee Valley Authority. It was set 
up by the U.S. Congress in 1933 primarily to provide flood 
control, navigation, and electric power in the Tennessee Valley 
region. It is now the Nation's largest public power producer as 
well as the steward of the Nation's fifth largest river system.
    Mr. Moore has been an Assistant U.S. Attorney in the 
Southern District of Alabama since 1985. I won't say anything 
more about him. We have Jeff Sessions here to elaborate a 
little bit on that.
    The committee will also hear Mr. R.D. James who has been 
nominated to serve as a member of the Mississippi River 
Commission. Since the flood of 1928, the primary function of 
the seven-member Mississippi River Commission has been to 
implement, construct, and operate the Mississippi River and 
tributaries project. Mr. James has been a member of the 
Commission since 1981 and has been nominated to serve a third 
term. He is currently the General Manager of A.C. Riley Cotton 
Company in New Madrid, Missouri.
    Where is New Madrid, Missouri?
    Mr. James. It is in the boot hill southeastern corner of 
Missouri, right on the Mississippi River. It is the little part 
that looks like it should have been Arkansas.
    Senator Inhofe. Near Cape Girardeau.
    Mr. James. Fifty miles south of Cape Girardeau.
    Senator Inhofe. Good. I used to go up there to the aircraft 
auctions once a month.
    Our final nominee under consideration today is Mr. John 
Paul Woodley, nominated to serve as the Assistant Secretary of 
the Army for Civil Works. Mr. Woodley was unanimously approved 
by the Armed Services Committee last week and was immediately 
referred to this committee. He has been serving as the 
Assistant Deputy Under Secretary of Defense for Installations 
and Environment since October 2, 2001.
    If confirmed, Mr. Woodley would be in charge of the Army 
Corps of Engineers. The Corps has provided a valuable service 
to this Nation for the last 200 years. It has supported our 
troops in every armed conflict in our Nation's history, 
including the current operation in Iraq. The Corps has also 
been instrumental in the creation of the most dynamic inland 
waterway system in the world.
    I want to thank all of you for being here today. This is 
going to be a very short meeting. At the present time we are 
also having a meeting of the Senate Armed Services Committee to 
consider the encroachment issue which this committee is going 
to be looking into next week. We will keep this fairly short.
    I now refer to Senator Sessions for any comments he might 
want to make.

STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR FROM THE STATE OF 
                            ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    Thank you for allowing me to have these words. We 
appreciate your leadership of this committee. I enjoyed my 
tenure with you before, serving on your subcommittee. Now you 
chair the full Committee on Environment and Public Works. I am 
proud of you and thankful that your values will be brought to 
bear on the issues facing our country.
    Richard Moore, I think, is one of America's finest public 
servants. He joined the United States Attorney's Office when I 
was U.S. Attorney. He demonstrated extraordinary capacity for 
work, for ability to try complex cases. He had a good 
background, including graduating from Spring Hill College in 
Mobile, an excellent Jesuit college. He went to high school in 
Mobile, and went to Cumberland Law School where I attended 
school and where my daughter attended law school. He has done a 
terrific job.
    He was named Senior Litigation Counsel in the office. That 
position is a real honor. One percent of the prosecutors in the 
country are named Senior Litigation Counsel. It represents a 
confidence that that attorney is capable of handling and is, in 
fact, a litigator of some of the most important cases around. 
He is now serving as Coordinator in the U.S. Attorney's Office 
of the Anti-Terrorism Task Force. That is an important new role 
of the United States Attorney's offices. Twenty-five Federal 
agencies work together in the Southern District of Alabama to 
plan the antiterrorist effort.
    He had an interesting opportunity several years ago. In 
1997-1998 he went to Oxford, England, as part as a fellowship 
to Oxford University. He spent a good bit of time there and 
lectured on the prosecution of serious fraud in the United 
States and England.
    Mr. Chairman, there was a matter that came up before this 
Senate involving Allen Teal and insurance fraud. It was being 
investigated in several districts around the country. I 
assigned Richard Moore to investigate and prosecute the case, 
if appropriate, in our district. Within 6 months, he had Allen 
Teal under indictment. That turned out to be at the time 
probably the largest insurance case in American history, $50 
million or more in losses. Senator Sam Nunn's committee had had 
repeated hearings on these matters.
    He is a churchman, and a man of integrity and ability. I am 
delighted that he is taking over this challenge at TVA. Just to 
show you how big TVA is, Mr. Chairman, they have a debt of $25 
billion. This IG has great potential to bring discipline, 
credibility, and integrity to the highest possible levels in 
TVA. I think they can achieve that. Richard will be an 
extraordinary leader. He has a wonderful wife, Elizabeth Ann. I 
am proud of them.
    I thank you, Mr. Chairman, for giving me the opportunity to 
say something about my good friend, Richard Moore. He is the 
kind of person that you would be proud to have in your home for 
supper with your family and the kind of person all of us are 
proud to see in public service.
    Thank you very much.
    Senator Inhofe. Thank you, very much, Senator Sessions. I 
can tell you that comes from the heart.
    I have a statement that I was asked by Senator Bond who 
could not be here. I will place his statement in the record.
    [The prepared statement of Senator Bond follows:]

 Statement of Hon. Christopher S. Bond, U.S. Senator from the State of 
                                Missouri

    Mr. Chairman, I appreciate your holding this hearing during such a 
busy work period and I am grateful for your leadership and support on 
issues that relate to the Corps of Engineers. In particular, I welcome 
an able nominee and very highly regarded constituent, Mr. R.D. James 
who was recommended by Senator Lincoln from Arkansas and myself. Mr. 
James is a great advocate for the Corps and the people who the Corps 
serves on the Mississippi River and he has an acute understanding of 
the issues that relate to water resources management. In addition, R.D. 
is a good and trusted friend and I hope the committee gives him a warm 
welcome and moves his nomination with dispatch because he is eager to 
go back to work.
    The Corps is a trusted and critical partner to our communities, 
farmers, shippers, energy providers and others. Historic investment in 
Corps programs by visionaries of the past has yielded dramatic economic 
stimulus to our communities. The numbers speak for themselves.
    Every year, Congress yields a referendum on the value of the Corps 
by making hundreds of individual project-by-project requests and 
additions to the Energy and Water Appropriations bill because the 
demand for these investments is high and its support is bipartisan and 
broad-based. The Corps does not undertake any projects that are not 
first authorized and then appropriated by Congress.
    Regrettably, while we have elevated these investments over 
Administration requests, more is necessary and I look forward to 
working with the Chairman to ensure that the mission of the Corps 
remains not just viable but active. Further, I believe it is past time 
to make the kind of long-term investments that will do justice to the 
legacy of those forward-thinkers who have provided for our economic 
opportunity. The decisions today will be the basis for our 
competitiveness for our children and grandchildren and I have no 
intention of rolling back our commitment to their future.
    When confirmed, Mr. Woodley will have a big job ahead of him that 
will test his skill and test his spine. It will require him to weigh 
competing views from passionate stakeholders to solve problems and 
ultimately make decisions and stand by them. The Corps is the Agency 
with the responsibility to represent not just fish and wildlife and not 
just producers and not just recreational fishermen. They have to 
balance all needs which is why they are in the vortex of controversy. 
Their job is made more difficult by the unwillingness of Congress to 
debate and identify priorities. Consequently, the Corps has been under 
a great deal of fire from people who don't get their way. With the 
Corps under increasing pressure to make difficult decisions, strong 
leadership is necessary to protect the role of the Corps and to ensure 
that the Agency is represented when inter-agency struggles arise. Few 
people want the job of Assistant Secretary but plenty of people in the 
Administration want to run the Corps from other Agencies.
    There are dozens of issues that must be disposed of. Returning some 
certainty to the Missouri River Master Manual management is critical. 
The review began in the 1980's with no resolution. President Clinton 
and his Administration studied, proposed, withdrew, and re-studied this 
matter fro 8 years without resolution. A decision needs to be made to 
remove the uncertainty which is stifling investment and perpetuating 
political unrest in the basin communities.
    In the period after confirmation, I look forward to the opportunity 
to make the case on those issues critical to Missouri.
    Senator Inhofe. First of all, before asking each one of you 
to make a comment, I have one required question to ask of each 
one of you. I will ask the question and ask each one of you to 
answer this individually.
    First, are you willing to appear at the request of any duly 
constituted committee of Congress as a witness?
    Mr. Woodley?
    Mr. Woodley. Yes, Mr. Chairman.
    Senator Inhofe. Mr. Moore?
    Mr. Moore. Yes, Mr. Chairman.
    Senator Inhofe. Mr. James?
    Mr. James. Yes, sir; I do, Mr. Chairman.
    Senator Inhofe. All right. Do you know of any matters which 
you may or may not have thus far disclosed which might place 
you in any conflict of interest if you are confirmed to this 
position?
    Mr. Woodley. I do not, Mr. Chairman.
    Mr. Moore. I do not, Mr. Chairman.
    Mr. James. I do not.
    Senator Inhofe. All right. Thank you very much.
    I now defer to Senator Jeffords for any opening comments he 
might want to make.
    Senator Jeffords. I do have a few questions, I believe.
    Senator Inhofe. Do you have an opening statement?
    Senator Jeffords. No, I don't.
    Senator Inhofe. All right. Do you have any statement you 
would like to make concerning this position?

STATEMENT OF JOHN PAUL WOODLEY, JR., TO BE ASSISTANT SECRETARY 
                  OF THE ARMY FOR CIVIL WORKS

    Mr. Woodley. Mr. Chairman, in addition to the written 
statement that I have submitted, I would like to take this 
opportunity if I may to introduce to the Senate my wife, 
Priscilla and my daughter, Elizabeth, who are seated behind me.
    Senator Inhofe. Which is the wife and which is the 
daughter?
    [Laughter.]
    Mr. Woodley. My other children, my daughter Cornelia, and 
my son, John Paul, were not able to get away from school today. 
But they are with us here today in spirit.
    Senator Inhofe. That's good. We always like to have the 
families here.
    Mr. Woodley. I deeply appreciate the courtesy of the 
committee for giving me this hearing.
    I would ask that my written statement be submitted in the 
record in its entirety.
    Senator Inhofe. Without objection, so ordered.
    Mr. Moore, do you have any comments to make?

 STATEMENT OF RICHARD W. MOORE, TO BE INSPECTOR GENERAL OF THE 
                   TENNESSEE VALLEY AUTHORITY

    Mr. Moore. Mr. Chairman, in addition to my written 
statement, I would make a few remarks.
    Senator Inhofe. That would be fine.
    Mr. Moore. First, I extend my thanks for your scheduling 
this hearing to consider my nomination to be Inspector General 
for TVA. I would also like thank President Bush for the trust 
and confidence that he has placed in me in nominating me for 
the position of Inspector General of TVA. I would also like to 
thank Senator Sessions for his kind remarks this morning and 
for his sponsoring my nomination for this position.
    I would say that I am fully aware that there are high 
expectations for the next Inspector General for TVA, 
particularly since, as you know, this will be first time that 
the President has appointed an Inspector General to TVA.
    Let me say without equivocation that if I am confirmed to 
the position I intend to justify the confidence that has been 
placed in me by maintaining my independence as an Inspector 
General and using the skills and knowledge that I have acquired 
as a Federal prosecutor over the past 17 years. Let me also say 
that I know that it is critical that an Inspector General never 
compromise his independence, and must avoid even the appearance 
of compromising his independence.
    I am aware of the history behind the enactment of the 
congressional legislation that enables the President to appoint 
an Inspector General at TVA. I believe that it is important 
that an Inspector General be able to stand his ground on issues 
of importance without fear of recrimination. At the same time I 
believe it is important that he show due respect, genuine 
respect, for the organization that he has oversight. The 
Inspector General's logic must be compelling, his facts 
irrefutable, and his motives pure. If that is the case, he 
should be able to win the respect of management.
    Finally, Mr. Chairman, I want to assure you and Senator 
Jeffords that I fully intend to be available for this committee 
for questions. I will work with you to the best of my ability. 
I will work to safeguard the assets of TVA and to make it as 
efficient and effective as possible. I would welcome any 
questions that either of you might have.
    I would ask that my written statement be submitted in the 
record in its entirety.
    Senator Inhofe. Without objection, so ordered.
    Mr. James?

     STATEMENT OF RICKY DALE JAMES, TO BE A MEMBER OF THE 
                  MISSISSIPPI RIVER COMMISSION

    Mr. James. My name is R.D. James. I am from New Madrid, 
Missouri. I appreciate the opportunity to appear before this 
committee.
    I have served the Mississippi River Commission since 
December 1981. I have done so proudly and it is an honor for me 
to have that position. The hearing this morning is to consider 
my reappointment for a third term. I appreciate appearing 
before you.
    The Mississippi River Commission was founded in 1879 
through the foresight of the Congresses before us. The 
Mississippi River then was mostly untraveled. There were ships 
and cargo vessels sinking daily, trying to get goods and 
services up and down through this young country. In 1879, the 
Mississippi River Commission was formed by an enactment of 
Congress to take over the Mississippi River and do studies, 
surveys, and make recommendations to the then Secretary of 
War--now the Secretary of the Army--for the improvement of the 
Mississippi River.
    That happened for the next 50 years. Then the Great Flood 
of 1927 came along. Devastation occurred in the lower valley 
killing thousands of people. Homes were inundated and towns 
ruined. This Congress at that time passed the Flood Control Act 
of 1928 and formed the Mississippi River and Tributaries 
Project. Again, that job was given to the Mississippi River 
Commission.
    The Commission itself is made up of seven members--three 
officers from the Corps of Engineers, one of whom is President 
of the Commission. Originally it was an officer from the Coast 
and Geodetic Survey, now NOAA. A rear admiral serves on the 
Commission. Then there are three civilians; two by law have to 
be civil engineers. I happen to be one of those civilians. I am 
a civil engineer.
    Since 1928 the great scope--some $15 billion worth--in the 
MR&T Project has taken most of the attention of the Mississippi 
River Commission. We have not forgotten about the upper reach 
of the Mississippi River nor its tributaries--the Missouri, the 
Illinois, the Ohio, as well as the Tennessee and its 
tributaries.
    We continue to work on the MR&T Project. It is some 88 
percent complete at this time, and has returned to this Nation 
between 24-26 benefit/cost ratio, which is hard to beat in any 
phase of government or private sector.
    The 1936 and 1986 Acts of this Congress gave us policy to 
go by, which we adhere to as a Commission. We report directly 
to the Chief of Engineers and to the Secretary of the Army with 
recommendations from the Commission for works that are being 
carried out individually by the seven districts along the 
Mississippi River--the Corps of Engineer Districts of St. Paul, 
Rock Island, St. Louis, Memphis, Vicksburg, and New Orleans.
    We have semiannual inspection trips. To me that is the 
highlight of the year for what I do on the Commission. I think 
we are one of the only facets of the Federal Government to do 
this. We go out into the field on the motor vessel 
``Mississippi'' and meet with local entities, State agencies, 
other Federal agencies, and actually inspect works in which we 
are trying to complete on the Mississippi River, be it flood 
control, navigation, or environmental restoration.
    We hear their input. We get on the ground. We talk with 
them on a local level and then take that back to the Corps 
Districts and ultimately to the President of the Commission for 
his advice to the Chief of Engineers.
    I have enjoyed doing this since 1981. I want to continue to 
be able to do it. With your support, I will do that. I promise 
you a job that I like and a job that I want to do.
    Thank you very much.
    I would ask that my written statement be submitted in the 
record in its entirety.
    Senator Inhofe. Without objection, so ordered.
    All right, Mr. James. Thank you very much.
    Mr. Moore, Senator Sessions referred to this. In your 
written statement you have a background in anti-terrorism. As 
you know, the jurisdiction of this committee has several areas 
of infrastructure that we are concerned about. The TVA is one 
of them. Can you say anything about your background in being 
able to preclude and minimize the risk of a terrorist attack in 
this jurisdiction?
    Mr. Moore. Mr. Chairman, certainly I would hope that the 
experience that I have had since September 11 in coordinating 
the local law enforcement and Federal agents in my district 
would be helpful in that regard. I can tell you that it will be 
a matter of great importance to me to scrutinize the security 
measures that have been taken by TVA and to determine whether 
or not they are sufficient.
    My own experience has been that it is helpful to go beyond 
traditional law enforcement to make those types of assessments. 
In my own district I look frankly beyond my district, beyond 
Alabama, and beyond this country to find expertise to help us. 
In that regard, I brought from New Scotland Yard and from 
Belfast, special agents who have been fighting the IRA for the 
last 30 years. It was my belief that it was helpful to have 
those agents come in and describe what it was like to fight 
terrorism in your backyard. Our local law enforcement agents, 
as well as the FBI, have not had that type of history or that 
culture. That is one example. I think it is important to do to 
have innovation in the way you approach this.
    Senator Inhofe. Thank you. Mr. James, I mentioned when we 
first started that we are currently holding a hearing on 
environmental encroachment on our training ranges. We are going 
to be having a hearing next week in this committee on the same 
thing.
    We are concerned about the environment. I just want to ask 
you what you see the role of the Commission in terms of 
balancing the traditional missions of flood control and 
navigation on environmental restoration?
    Mr. James. i see it as a positive opportunity. Actually, 
the Commission and the staff of the Corps of Engineers several 
years ago have begun initiating that environmental restoration. 
As you know, back in the early days of the Mississippi River 
Commission that didn't come much into play. We were more 
concerned about getting this country on its feet and going. Now 
that we have enjoyed the fruits of our labor, we are able to 
sit back and think about fixing some of the stuff we may have 
messed up in times passed.
    That is what we intend to do as projects are recommended to 
this Commission as we go forward by districts of the Corps of 
Engineers. They will have to contain, as enacted by you the 
Congress, parts of environmental restoration and husbandry to 
the environment. I support that 100 percent.
    Senator Inhofe. Thank you very much.
    Mr. Woodley, the big subject I have for you is the permit 
process. We have lots of problems in that. We try to correct 
those with legislation. I could read the legislation that was 
passed but I think you know what it is. Particularly in terms 
of the times, what kind of priority will streamlining this 
permit process enjoy?
    Mr. Woodley. Mr. Chairman, that will be a very important 
priority from my office and for the Corps of Engineers moving 
forward to improve all these bureaucratic and regulatory 
processes that are in place, always in ways that maintain the 
integrity of the regulatory process. But I have no question but 
that in our dealings with the private property owners and the 
regulated community in general, that there are many ways in 
which we can improve the processes that we have in place at the 
present time.
    Senator Inhofe. We will be holding your feet to the fire on 
that one.
    Senator Jeffords?
    Senator Jeffords. Since 1986, the Administration has 
supported a proposed Water Resources Development Act to 
Congress every 2 years for its consideration. The 
Administration failed to submit its proposed legislative 
package in 2002. When do you anticipate submitting the next 
Water Resources bill to Congress?
    Mr. Woodley. Senator, I do not know what the status is on 
developing that. I know that is a very important piece of 
legislation. If I were confirmed for this position, I would 
make it a very important priority to get that legislation 
forwarded and bring it to the committee.
    Senator Jeffords. How do you intend to get that done? I am 
concerned about it; it hasn't been done. How do you anticipate 
getting it done?
    Mr. Woodley. I think like any other process of setting 
priorities in the authorization area, we would work on finding 
out what our priorities were and submit them to the Congress 
for their approval.
    Senator Jeffords. The Corps of Engineers has been the 
subject of a great deal of controversy over the last several 
years, including allegations that the Corps ``cooked the 
books'' when evaluating the economic justifications for some 
navigation projects. This has led many Members of Congress to 
seek reform in the Corps.
    Can you describe your philosophy and the Corps reform? How 
do you plan to incorporate that philosophy into the daily 
management?
    Mr. Woodley. Yes, indeed. One great requirement of an 
agency like the Corps of Engineers is that it enjoy the highest 
level of public confidence in its evaluation and decisionmaking 
processes. I believe it is fair to say that the leadership that 
is in place with General Flowers as the Army Chief of Engineers 
has, in fact, over the last 18 to 24 months made that a very 
important priority and has made tremendous strides in that.
    I also understand that the submission that has been made 
for the budget for fiscal year 2004 contains a request for 
implementing a system of outside independent third party review 
of the Corps' analysis. I think that is something that has 
called for and, for instance, is certainly a factor that was 
called for in the review by the National Academy of Sciences 
and is a very important component of Corps reform.
    Senator Jeffords. In January of this year the Corps and the 
Environmental Protection Agency issued an advanced Notice of 
Proposed Rule Making on the Clean Water Act regulatory 
definition of ``Waters of the United States.''
    In response to the Supreme Court decision in the Swank 
case, is this proposal limited to comments related to isolated 
intrastate non-navigational waters? Should regulation define 
``isolated water.''
    Mr. Woodley. Senator, as you say, was a response to the 
Supreme Court decision which is another example of many that 
could be brought forward of the Court's wrestling with the 
limits of Federal jurisdiction in that arena.
    I am not intimately familiar with the terms of the Notice. 
I believe its primary thrust is that arena. I think the nature 
of these advance notices of proposed rulemaking are more calls 
for comment to the public. They would ask what the scope should 
be of any rulemaking in response to this new Supreme Court 
decision and to other legislative and regulatory developments 
that may have taken place.
    I think it is not inappropriate for the regulatory agencies 
to take stock in that way. Rather than having the 
implementation of the Supreme Court decision made piecemeal by 
litigation in the lower courts across the country that gives 
them the first cut at it. I think it is not inappropriate for 
them to come forward with an advanced notice of proposed 
rulemaking. Its primary thrust is the area that you mentioned. 
But I think it is not necessarily entirely limited to that.
    Senator Jeffords. I have one more question.
    Senator Inhofe. That's perfectly all right, Senator 
Jeffords.
    Senator Jeffords. Mr. Woodley, you have been the Assistant 
Deputy Under Secretary of Defense for Installations and the 
Environment since October 2001. Can you tell the committee what 
your role has been in the development of the Administration's 
Readiness and Range Preservation Initiative being proposed as 
part of the 2003 defense authorization bill?
    Mr. Woodley. Yes, sir. I have worked with other leaders 
within the Department to add with my counterparts in other 
Federal agencies to craft an initiative that we felt was 
sufficient to get the reforms in place that would allow us to 
manage our military lands but did not go beyond what was 
necessary for us to manage military lands and our military 
missions in a way that was environmental responsible.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Carper?
    Senator Carper. Mr. Chairman, I have no questions of our 
witnesses. I simply wanted to stop by and thank you for your 
willingness to serve in the capacities for which you have been 
nominated. We look forward to moving forward with your 
nominations.
    Thank you.
    Senator Inhofe. Thank you, Senator Carper.
    I ask unanimous consent that the statements from the 
following nominees to be members of the Board of Trustees for 
the Morris K. Udall Scholarship in Excellence in the National 
Environment Policy Foundation be included in the record: Mr. 
Lance Bowdry, Bradley Udall, Richard Narcia, Herbert Genther, 
and Malcolm Bogety.
    Without objection, so ordered.
    Does anyone have any comments that they would like to make 
concerning your nomination?
    Mr. James. No, thank you, Mr. Chairman.
    Mr. Woodley. No, thank you, Mr. Chairman.
    Mr. Moore. No, thank you, Mr. Chairman.
    Senator Inhofe. Thank you very much for your service. We 
will look forward to serving with you in the future.
    We are adjourned.
    [Whereupon, at 10:03 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Mr. Chairman, I thank you for holding this hearing on pending 
nominations. I just ask to insert into the record a brief statement on 
the nomination of John Paul Woodley, Jr.
    My greatest interest in the future activities of the U.S. Army 
Corps of Engineers concerns the Corps' management of the Missouri 
River. As the members of this committee are well aware, the management 
of this vital river system has been the subject of intense debate for 
well over a decade. Current management of the river is unfair to my 
State of Montana and in low water years, has a serious negative impact 
on the economy of my State.
    I personally have fought for years to convince the Corps to revise 
the Master Manual governing its operations on the Missouri River so 
that Montana and other upstream States are treated more fairly in low 
water years. Short of revising the Master Manual, I also firmly believe 
the Corps has far more flexibility in its annual operations on the 
Missouri River than it has been willing to allow, up to this point.
    I recently have asked that the Corps use that flexibility to reduce 
unsustainable releases from Fort Peck Reservoir. The Corps in the early 
months of this year was drafting Fort Peck as if this were a normal 
water year. After 5 years of drought, and what looks to be another dry 
year--despite some late spring moisture--it defies common sense to call 
this a normal water year. Fort Peck Lake is reaching record lows. This 
is devastating to the local fishery and to the vital recreation economy 
of central and eastern Montana.
    Unfortunately, Montana and other upstream States, like North and 
South Dakota, are bearing the lion's share of the burden of any 
drought. Our reservoirs are drained to dangerously low levels, our fish 
and wildlife are harmed, yet the downstream States get the water they 
need; they get navigation service for virtually the entire so-called 
navigation ``season.'' The Corps claims they are not being arbitrary 
and that they are fairly balancing all authorized uses and purposes of 
the Missouri River system. I am at a loss to see how the Corps can make 
this claim, when you look at the devastation upstream caused by their 
operations.
    I plan to ask Mr. Woodley several questions about this issue, and I 
hope I can get his commitment to change the attitude and focus of the 
Corps when it comes to the Missouri River. We in Montana have suffered 
enough. We've been fighting over the Master Manual long enough. It's 
time to take a bold step forward and recognize that the economy, 
landscape and values that shape the Missouri River basin have changed 
significantly since the original Master Manual was finalized.
    Thank you, Mr. Chairman.
                               __________
    Statement of Richard W. Moore, Nominated by the President to be 
             Inspector General, Tennessee Valley Authority
    Mr. Chairman, Senator Jeffords, and other distinguished members of 
the committee, let me offer my appreciation to you for scheduling this 
hearing.
    I would like to thank President Bush for his trust and confidence 
in nominating me to head the Inspector General's office for TVA. I also 
extend my thanks to Senator Sessions who sponsored my nomination for 
this position and who has been both a mentor and a friend over the 
years. I am fully aware that there are high expectations for the next 
Inspector General of TVA as this is the first time that an Inspector 
General for TVA will be appointed by the President. Let me say without 
equivocation that if I am confirmed to the position, I intend to 
justify the confidence placed in me by safeguarding the independence 
that I will have as an Inspector General and by using the knowledge and 
skills that I have acquired as a Federal prosecutor over the last 17 
years.
    Mr. Chairman, members of the committee, I have no illusions about 
this job. It has been described as one of the toughest jobs in 
government. That is so because within the job description of Inspector 
General are what might be considered by some as inherent conflicts. On 
the one hand, an Inspector General is necessarily a part of the 
organization he oversees. His objective and independent evaluations and 
recommendations can be of great value to management. Consequently, 
there is a natural tendency for any Inspector General to identify with 
the agency.
    On the other hand, an Inspector General will often find that his 
work brings him into conflict with management. His reports to Congress 
and to the public may reflect poorly on management and the 
organization. How he balances this dual role is likely to influence his 
effectiveness as an Inspector General.
    I believe it is imperative that an Inspector General clearly define 
how he perceives his role. He should never think that he has been 
appointed to run the organization; yet he should be available to offer 
advice that may prevent problems in the future. An Inspector General is 
in a unique position to speak objectively and to be an agent of 
positive change.
    Most importantly, I believe that an Inspector General must never 
compromise his independence; and even beyond that, he must avoid even 
the appearance of compromising his independence. I am aware of the 
history behind the congressional legislation that was enacted to enable 
the President to appoint the Inspector General at TVA. It is important 
that the Inspector General for TVA stand his ground on issues of 
importance, and he must demonstrate genuine respect for both management 
and their organization in the process. His logic must be compelling on 
the issues of importance, his facts irrefutable, and his motives pure. 
If that is the case, he should win the respect of management; and at 
the end of the day, they should work with him to implement 
recommendations that he makes.
    Mr. Chairman, members of the committee, I believe that my 
professional experience as an Assistant United States Attorney has 
prepared me to assume the role of Inspector General for the Tennessee 
Valley Authority. At the heart of many of the cases that I have 
prosecuted over the last 17 years has been fraud against the United 
States government. These cases have included bank fraud, income tax 
evasion, insurance fraud, bid rigging on government contracts, 
kickbacks to government officials, Federal grant money fraud, health 
care fraud, and racketeering under the Federal RICO statute. In all of 
these cases, the prosecution of the defendants resulted in public 
disclosure of wrongdoing which was often necessary to restore integrity 
to the Federal program involved. In many cases, we were able to forfeit 
the defendant's assets in order to make restitution to the government.
    The complexity of the work at the Tennessee Valley Authority 
involves many challenges and risks for the organization. Like many 
organizations, TVA is vulnerable to fraud because of the magnitude of 
its budget and the scope of its operations. The mission of the Office 
of Inspector General for TVA should be to hold accountable all those 
who would prey on this organization. My commitment, if confirmed, will 
be to aggressively pursue anyone, whether inside or outside of TVA, who 
cheats the organization. I firmly believe that a truly independent 
Inspector General can marshal the professional team of investigators 
and auditors now working in that office to insist on a consistent 
environment of integrity and accountability at TVA. The Inspector 
General's office is currently being very ably led by Don Hickman as 
Acting Inspector General. The current Board of Directors for TVA has 
expressed their commitment to supporting an independent Inspector 
General, appointed by the President, and we are in total agreement that 
perpetrators of fraud against TVA should be vigorously pursued. If 
confirmed I will work with the management of TVA and the law 
enforcement community to establish a zero tolerance standard for fraud 
against TVA
    Of course rooting out fraud against TVA is only part of the mission 
of the Inspector General. Clearly, the Inspector General can serve a 
vital role in identifying and promoting economy and efficiency through 
improved operations. Comprehensive audits of the operations of TVA by 
the Office of the Inspector General can be of great benefit to TVA in 
that regard.
    Mr. Chairman, members of the committee, there is another area that 
I believe should be a priority for the next Inspector General at TVA. 
If confirmed, I pledge to conduct a thorough review of the security 
measures being taken by the Tennessee Valley Authority to safeguard its 
infrastructure against a terrorist attack. My work since September 11, 
2001, as the Anti-terrorism Task Force Coordinator in our district has 
confirmed my conviction that the protection of America's assets can be 
best accomplished through the coordinated efforts of multiple 
government agencies participating in a focused risk analysis and with 
clear objectives. My experience in leading a coalition of law 
enforcement agencies in my Federal district will, I believe, be useful 
in working with the various local, State, and Federal agencies within 
the Tennessee Valley Region to protect the vital assets of the 
Tennessee Valley Authority.
    Finally, Mr. Chairman, I want to assure you and the members of this 
committee that I will work closely with this committee to safeguard the 
assets of TVA and to make it as efficient and effective as possible. I 
can guarantee you my best efforts toward that end.
    I would be pleased to answer any questions you may have.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                               __________
  Statement of Rickey Dale James, Nominated by the President to be a 
               Member of the Mississippi River Commission
    Mr. Chairman and members of the committee: I am honored to appear 
before you as the nominee for member of the Mississippi River 
Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged with 
the vital task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities, which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the Commissioners were to serve as advisors 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has focused on the 
Mississippi River and Tributaries project, authorized by the Flood 
Control Act of May 15, 1928, to be implemented under oversight of the 
Commission. The MR&T project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and covers 
portions of seven States. It receives water from all or portions of 31 
States and part of two Canadian provinces, or roughly 41 percent of the 
contiguous United States. Effective planning, design, construction, and 
operation of the widespread and complex MR&T project have been assisted 
greatly by the Commission's active consultation with the public, 
particularly on its semiannual lower Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    The MR&T project is truly of national significance. For example, a 
major flood on the lower Mississippi River would have catastrophic 
effects on the inhabitants of the Mississippi Valley and the economy of 
the Nation were it not for the protection provided by the levees and 
other flood control works throughout the project area. Many have noted 
that the comprehensive project on the lower river provided for passage 
of major floods in 1973, 1983, 1997, and other years without the 
extensive damage suffered in the upper river area during the 1993 and 
1995 flood events.
    In addition, the navigation features of the project are essential 
to maintaining the river for shipping import and export commodities 
between inland ports and world markets. In short, the navigation 
features of the MR&T project are essential in peacetime and vital to 
our national defense in times of emergency.
    A reorganization of the U.S. Army Corps of Engineers in April 1997 
placed the entire length of the Mississippi River within the 
Mississippi Valley Division of the Corps of Engineers. The Commander of 
this Division also serves as President of the Mississippi River 
Commission. This reorganization allows management of the Mississippi 
River as a single and unified system and enables the Commissioners to 
more effectively serve as advisors to the Division Commander and the 
Chief of Engineers as authorized in the 1879 legislation.
    The Commission members have been active as advisors to the Corps on 
the Upper Mississippi River since the reorganization. The Commission 
has conducted annual inspection trips on the Upper Mississippi River 
since August 1997 and held a series of public meetings in the St. Paul, 
Rock Island, and St. Louis Districts. These meetings are in addition to 
the semiannual inspection trips and public meetings in the Memphis, 
Vicksburg, and New Orleans Districts.
    Regarding my personal qualifications, I have served on the 
Mississippi River Commission since December 1981. This confirmation 
will provide my third consecutive 9-year appointment to this vital 
Commission. I firmly believe that my experience since 1981 in 
partnering with local interests, levee boards, and Federal, State, and 
area agencies and organizations justifies my reappointment to the 
Mississippi River Commission.
    I am a native of Fulton County, Kentucky. I feel that many years of 
living and working in the New Madrid, Missouri, area and my affiliation 
with the Commission have given me a vast knowledge of the Mississippi 
River and the various challenges and issues associated with it. It has 
been my privilege to meet many people over the years, both in the lower 
valley and in the upper valley, to discuss with them their concerns 
regarding this powerful river.
    I am a self-employed farmer and manager of cotton gins and grain 
elevators for the A.C. Riley Cotton Company. I currently serve on the 
Board of Directors and Executive Committee of the Southern Cotton 
Ginners Association, Memphis, Tennessee. I am a Board Member of the 
Cotton Producers of Missouri, Kennett, Missouri, and a Board Member of 
Osceola Products Company, Osceola, Arkansas, and Kennett, Missouri. I 
am currently a member of the Board of Directors of the Mercantile Bank 
of Sikeston, Missouri. In addition, I am a member of the New Madrid 
County Board of Education and have served as its president since 1985.
    I attended Murray State University in Kentucky and received a 
Bachelor of Science degree in Civil Engineering from the University of 
Kentucky in 1971 (while employed with the Kentucky Department of Water 
Resources).
    If confirmed to the position, Mr. Chairman, I would look forward to 
continuing to play a key role in the continual improvement of the 
Mississippi River system and the MR&T project by applying the most 
modern practices in water resources engineering. I look forward to 
reappointment on this Commission that focuses not only on the 
traditional roles of safely passing the Mississippi River Basin 
floodwaters to the Gulf of Mexico, but also providing a safe and 
dependable navigable waterway, and incorporating programs and projects 
for environmental protection and restoration.
    Mr. Chairman, for your information, I have attached a complete 
personal biography and a current list of members of the Mississippi 
River Commission. This completes my prepared statement, and I would be 
pleased to respond to any questions.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                               __________
  Statement of Rear Admiral Nicholas Augustus Prahl, Nominated by the 
       President to be Member of the Mississippi River Commission
    Mr. Chairman and members of the committee: I am honored to appear 
before you as the nominee for member of the Mississippi River 
Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged with 
the vital task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the Commissioners were to serve as advisors 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has focused on the 
Mississippi River and Tributaries project, authorized by the Flood 
Control Act of May 15, 1928, to be implemented under oversight of the 
Commission. The MR&T project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and covers 
portions of seven States. It receives water from all or portions of 31 
States and part of two Canadian provinces, or roughly 41 percent of the 
contiguous United States. Effective planning, design, construction, and 
operation of the widespread and complex MR&T project have been assisted 
greatly by the Commission's active consultation with the public, 
particularly on its semiannual lower Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    The MR&T project is truly of national significance. For example, a 
major flood on the lower Mississippi River would have catastrophic 
effects on the inhabitants of the Mississippi Valley and the economy of 
the Nation were it not for the protection provided by the levees and 
other flood control works throughout the project area. Many have noted 
that the comprehensive project on the lower river provided for passage 
of major floods in 1973, 1983, 1997, and other years without the 
extensive damage suffered in the upper river area during the 1993 and 
1995 flood events.
    In addition, the navigation features of the project are essential 
to maintaining the river for shipping import and export commodities 
between inland ports and world markets. In short, the navigation 
features of the MR&T project are essential in peacetime and vital to 
our national defense in times of emergency.
    A reorganization of the U.S. Army Corps of Engineers in April 1997 
placed the entire length of the Mississippi River within the 
Mississippi Valley Division of the Corps of Engineers. The Commander of 
this Division also serves as President of the Mississippi River 
Commission. The reorganization now allows management of the Mississippi 
River as a single and unified system and enables the Commissioners to 
more effectively serve as advisors to the Division Commander and the 
Chief of Engineers as authorized in the 1879 legislation.
    The Commission members have been active as advisors to the Corps on 
the Upper Mississippi River since the reorganization. The Commission 
has conducted annual inspection trips on the Upper Mississippi River 
since August 1997 and has held a series of public meetings in the St. 
Paul, Rock Island, and St. Louis Districts each year. These meetings 
are in addition to the semiannual inspection trips and public meetings 
in the Memphis, Vicksburg, and New Orleans Districts.
    With regards to my personal qualifications, I have served as a 
member of the National Oceanic and Atmospheric Administration (NOAA) 
Commissioned Corps for 33 years next month. I have commanded and 
managed at several levels during my career. Many of these assignments 
are relevant to my pending confirmation. Since June 1999, I have served 
as Director, Marine Operations Center, NOAA Marine and Aviation 
Operations, where I have the responsibility for the management of 
NOAA's fleet of 17 research and survey vessels operating out of marine 
centers, laboratories and port offices from Honolulu, Hawaii, to Woods 
Hole, Massachusetts. These ships support NOAA's critical mission 
requirements for nautical charting, fisheries research and stock 
assessment, and oceanographic research.
    In field assignments, I have served on the NOAA ships McARTHUR, 
GEORGE B. KELEZ, WHITING, FAIRWEATHER, and MT MITCHELL, the latter as 
Commanding Officer. These vessels were involved in nautical charting, 
marine ecosystem oceanography, and geophysical surveys.
    In assignments ashore I have been responsible for processing 
geophysical survey data, the research and operational planning of a 
comprehensive marine ecological assessment of the New York Bight, and 
implementing bilateral agreements in cooperative oceanographic research 
with the Soviet Union and France. Later, I was Chief of the Planning 
Division of the National Ocean Survey, at the time one of NOAA's line 
offices.
    Over the past 15 years, I have served as the Deputy Director of the 
Coast and Geodetic Survey where I was responsible for assisting the 
Director in the management of the Nation's nautical and aeronautical 
charting and geodesy programs. Following that assignment, I served as 
Chief of the Marine Chart Division with the responsibility for the 
production of the Nation's suite of nautical charts, bathymetric maps 
and related navigational products and services. Following Command 
aboard Mt MITCHELL, I returned to headquarters as the Deputy and then 
Acting Director of the Office of Coast Survey. In that position, I was 
the National Hydrographer responsible for the Nation's nautical 
charting program from data collection to chart production.
    As a designated member of the Mississippi River Commission since 
May 1999, I have accompanied the Commission on high and low water 
inspection trips of the Mississippi River and Tributaries and have 
participated in the public meetings held by the Commission over the 
past three and half years. This experience has given me considerable 
insight into the importance of the Mississippi River and its 
Tributaries as a National resource for transportation and recreation. 
Also, I have come to understand and appreciate the need for a balanced 
approach in resolving the often conflicting requirements for flood 
control, navigation, and environmental protection and restoration.
    I am a native of Massachusetts, and received a bachelor's degree 
from Harvard University in geology in 1967. I later received master's 
degrees from the University of Colorado in geology in 1969 and The 
Johns Hopkins University in computer science in 1986.
    I believe my background and experience qualify me for an 
appointment to the Mississippi River Commission. If confirmed to the 
position, Mr. Chairman, I would look forward to playing a role in the 
continual improvement of the Mississippi River system and the MR&T 
project by recommending, through the Commission's oversight 
responsibilities, the application of the most modern practices in water 
resources engineering. I would also look forward to being part of a 
Commission that focuses not only on the traditional roles of safely 
passing the Mississippi River Basin floodwaters to the Gulf of Mexico 
and providing a safe and dependable navigable waterway, but also 
incorporating programs and projects for environmental protection and 
restoration.
    Mr. Chairman, for your information, I have attached a complete 
personal biography and a current list of members of the Mississippi 
River Commission.
    This completes my prepared statement, and I would be pleased to 
respond to any questions.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                               __________
 Statement of John Paul Woodley, Jr., Nominated by the President to be 
            Assistant Secretary of the Army for Civil Works
    Mr. Chairman, members of the committee: I am mindful of the 
confidence expressed in me by President Bush and Secretary Rumsfeld in 
submitting my name in nomination for this important post.
    The Army Corps of Engineers, in its Civil Works function, 
encompassing navigation, flood control, water resource development, and 
environmental improvements, has for 200 years contributed greatly to 
the prosperity and well-being of our Nation.
    In the course of my visits with many of you over the past few 
weeks, the issue of the organization of the Corps of Engineers, and 
whether some of its missions and functions should be privatized or 
shifted to other agencies of the government has been very prominent.
    I think it would be appropriate for me to make clear what my views 
are on this matter.
    In Section 109 of the Omnibus Appropriations Act for 2003, Congress 
has spoken with extraordinary clearness and directness on this 
question. That section directs that the transfer of Corps of Engineers 
missions and functions should not be implemented or even studied 
without further direction by Congress.
    I do not have any plans or intentions that are inconsistent with 
Section 109.
    If in the future I have ideas to improve the operations of the 
Corps of Engineers civil works function, The Secretary of Defense has 
been clear on the importance of consulting with Congress as an 
important first step. I promise you full and open communications and 
consultation.
    I deeply appreciate the courtesy of the committee and if confirmed 
I look forward to working with the Chairman and all members to address 
the vital navigation, flood control, water resource, and environmental 
challenges of the Nation.
    Thank you, Mr. Chairman.
                               __________
 Statement of Robert Lance Boldrey, Nominated by the President to be a 
Member of the Board of Trustees of the Morris K. Udall Scholarship and 
         Excellence in National Environmental Policy Foundation
    Mr. Chairman and members of the committee, thank you for the 
opportunity to provide this statement in support of my nomination to be 
a member of the Board of Trustees of the Morris K. Udall Foundation. I 
am honored and grateful that President Bush saw fit to nominate me to 
this position and, if confirmed, look forward to continuing my public 
service by helping to advance the mission of the Udall Foundation.
    My professional career and personal background has provided me with 
valuable experience and perspective to bring to the Udall Foundation. I 
grew up in northern rural Michigan close to the shores of Lake 
Michigan. Following my undergraduate education at James Madison College 
of Michigan State University, I earned a law degree from the Duke 
University School of Law. I then returned to Michigan, where I 
practiced in the Government and Commerce department of a mid-size 
Capitol city law firm, before joining the Republican policy staff of 
the Michigan House of Representatives.
    In 1999, at the outset of former Governor John Engler's final term, 
I was honored with the opportunity to join Governor Engler's 
administration as his Deputy Legal Counsel. During my tenure in the 
Governor's office, I was responsible for managing all aspects of the 
State of Michigan's relationship with 12 federally recognized Indian 
tribes. Like most States, Michigan did have its disputes with the 
sovereign tribal governments located within its borders. I am proud, 
however, of the role I played in minimizing these disputes, in 
emphasizing cooperation over conflict, and in laying the groundwork for 
a more beneficial relationship in the future.
    While serving in the Governor's office, I wrote the first ever 
Governor's Policy Statement on State-Tribal Affairs and created the 
position of Governor's Advisor on State-Tribal Affairs, in which I 
served until the end of Governor Engler's term. I negotiated a State-
Tribal Accord that emphasizes consultation and cooperation between the 
State and tribal governments and that will guide the relationship 
between these governments into the future. That Accord was signed by 
Governor Engler and the State's tribal leaders in 2002. Also in 2002, I 
organized the second of two annual State-tribal summits between the 
Governor's Cabinet and all of Michigan's tribes. These were the first 
such summits to take place in Michigan, but hopefully will be the first 
of many.
    In addition to advocating for a closer and more cooperative 
relationship between the State and tribes, and helping to set in place 
the framework for the further development of that relationship, I led 
the State executive office in negotiating two landmark agreements that 
evidence the benefits of such a relationship. In 1999 and 2000, I 
helped lead negotiations between the State and five tribes for a 
conservation-based consent decree governing State and tribal fishing in 
the Great Lakes. This decree brought settlement to nearly thirty years 
of divisive litigation and even more importantly put in place 
conditions that allow for the rehabilitation of native lake trout.
    During my time in the Governor's office, I also helped lead 
negotiations for comprehensive State-tribal tax agreements that were 
signed last year. I also led efforts to educate members of the business 
and retailer community and to garner their support for legislative 
ratification of these agreements. While a number of States and tribes 
have reached agreements concerning tobacco and motor fuels taxes, 
Michigan and its tribes are the first to reach agreement as to the 
administration and applicability of all State and tribal taxes to 
transactions involving tribes and tribal members. These agreements not 
only put to rest complex and often divisive tax issues, but also 
provide economic certainty that is of great benefit to tribes seeking 
to lure economic development and diversify tribal economies.
    Now that Governor Engler's term has ended, I have returned to the 
private sector, where I will head the Indian law practice at the law 
firm of Dykema Gossett, PLLC. I am excited that my new career will 
allow me to continue my efforts to both foster cooperation between 
tribes and other governments and bring greater economic opportunities 
to tribes and tribal members. Although the work of the Udall 
Foundation, in part, also provides leadership training and consultation 
to tribal leaders, neither my new role nor my prior position with 
Governor Engler has given rise to any matters that might place me in a 
conflict of interest if I am confirmed to the Board of Trustees for the 
Udall Foundation.
    I believe that my professional focus on promoting cooperation and 
negotiation as the best means to resolve conflicts is an outlook that 
fits well with the mission of the Udall Foundation, as well as with the 
U.S. Institute for Environmental Conflict Resolution managed by the 
Udall Foundation. My background allows me to bring to the Udall 
Foundation personal experience to emphasize the gains that can be 
achieved within Indian Country by cooperation and negotiations between 
tribal and State governments, conducted in an atmosphere of mutual 
respect for one another's sovereign status. I can also bring to the 
Udall Foundation the perspective of tribal and State governments from 
the Midwest, whose issues often differ from governments in Western 
States but are no less important to the Udall Foundation's activities. 
Finally, as a Republican who has worked closely with leaders of the 
business community on numerous issues, it is my hope to promote the 
Udall Foundation's activities to an audience that can both benefit from 
and assist those initiatives.
    In conclusion, I would greatly appreciate the support of the 
Committee on Environment and Public Works and the U.S. Senate as I seek 
to continue public service as a member of the Board of Trustees of the 
Udall Foundation. I will, of course, appear as a witness at the request 
of any duly constituted committee of the Congress and, as noted above, 
do not know of any matters that might place me in a conflict of 
interest if I am confirmed to this position. Thank you for the 
opportunity to submit this statement and for your kind consideration.

                               __________
   Statement of Malcolm Bowekaty, Nominated by the President to be a 
Member of the Board of Trustees of the Morris K. Udall Scholarship and 
         Excellence in National Environmental Policy Foundation

    I, Malcolm B. Bowekaty, hereby state to the Senate Committee on 
Environment and Public Works that I am willing to appear at the request 
of any duly constituted committee of Congress as a witness. 
Furthermore, I know of no matters currently that would put me in a 
conflict of interest with the Board of Trustees should I be confirmed 
by the Senate Committee on Environment and Public Works.
    I believe that I will fulfill the position with honor and dignity. 
I sincerely appreciate the opportunity to serve on the Board of the 
Morris K. Udall Scholarship and Excellence in National Environmental 
Policy Foundation.

                               __________
 Statement of Herbert R. Guenther, Nominated by the President to be a 
Member of the Board of Trustees of the Morris K. Udall Scholarship and 
         Excellence in National Environmental Policy Foundation

    Dear Mr. Chairman: Thank you for the opportunity to respond to the 
Senate Environment and Public Works Committee's questions.
    1. I would be honored to appear before any constituted committee of 
the Congress as a witness.
    2. To my knowledge, I am without conflict of interest in the 
position I am being considered for with the Morris K. Udall Foundation.
    I would be happy to provide any additional information you may 
desire.

                               __________
  Statement of Richard P. Narcia, Nominated by the President to be a 
Member of the Board of Trustees of the Morris K. Udall Scholarship and 
         Excellence in National Environmental Policy Foundation

    I am forwarding this statement in support of my nomination to the 
Morris K. Udall Foundation Board of Trustees. I consider it a 
tremendous honor to be nominated by President Bush to become a member 
of such a prominent board. The mission and role of the Udall Foundation 
is essential in developing strong public policy in the area of the 
environment and Federal Indian policy and is essential to our national 
well being.
    My name is Richard P. Narcia. I am a member of the Gila River 
Indian Community (the Community) and currently serve as Governor of the 
Community. In this capacity I deal with, on a daily basis, many of the 
same complex issues that the Foundation was created to study and 
provide solutions to. I am very anxious and excited to have a part in 
developing comprehensive and cohesive policies that impact the 
environment and Federal Indian policy. As a Native American, and tribal 
leader, the sustainability of our environment within the context of all 
other competing demands is not only a duty, but also, a necessary task 
we all strive to achieve.
    One important aspect of the Foundation is to provide opportunities 
to qualified Native American students to participate in diverse and 
educational experiences. As a member of the Board I look forward to 
enhancing these opportunities for students who interested in further 
studies and professions in the fields of the environment and Federal 
Indian policy.
    Mr. Chairman, as per your request, in a letter dated March 17, 
2003, two questions were included to be answered:
    1. Are you willing to appear at the request of any duly constituted 
committee of the Congress as a witness?
    I am and will make myself available to any committee as requested.
    2. Do you know of any matter which you may or may not have thus far 
disclosed which might place you in any conflict of interest if you are 
confirmed in this position?''
    At this time, I am not aware of any matter that would place myself 
in a circumstance of a conflict of interest. However, in the future, if 
a potential conflict does arise, I will recuse myself from the relevant 
decisionmaking process of the Board.
    Thank you for your considering of my nomination. If referred by 
this committee to the full Senate for confirmation, I pledge to work in 
the best interest of the Foundation and our Nation.

                               __________
  Statement of Bradley Hunt Udall, Nominated by the President to be a 
Member of the Board of Trustees of the Morris K. Udall Scholarship and 
         Excellence in National Environmental Policy Foundation

    Dear committee members: In lieu of appearing before the committee 
to support my nomination for the board of the Udall Foundation, I am 
supplying the following statement as requested by the committee in a 
letter of March 17, 2003.
    1. Are you willing to appear at the request of any duly constituted 
committee of the Congress as a witness?
    Answer: Yes.
    2. Do you know of any matters which you may or may not have thus 
far disclosed which might place you in any conflict of interest if you 
are confirmed in this position?
    Answer: Since my original statement to the committee, I have 
recently been employed by the University of Colorado as the Managing 
Director of the Western Water Assessment. This position is funded by 
the National Oceanic and Atmospheric Administration's Office of Global 
Programs and is part of OGP's Regional Integrated Sciences and 
Assessments Program. RISAs are experimental programs designed to study 
climate variability and climate change, and to make sure that 
government climate research is usable by local decisionmakers at the 
regional level. There are 6 RISA programs around the country.
    There are informal ties between the RISA program at the University 
of Arizona and the Udall Center at the University of Arizona. There are 
informal and formal ties between the Udall Center and the Udall 
Foundation. The Udall Foundation has, to the best of my knowledge, no 
relationship with the UA RISA program.
    In the course of my work I will have professional communication 
with the UA RISA program. Given the nature of these relationships it is 
extremely unlikely that this professional relationship could lead to a 
conflict of interest with my position on the board of the Udall 
Foundation. Nevertheless, I feel it is important to disclose this 
relationship.
    I will be vigilant in monitoring my activities for any possible 
conflict of interest. I stand by my previous statement to the committee 
about how I would deal with a potential conflict. This is what I said 
in my previous statement:
    3. Explain how you will resolve any potential conflict of interest, 
or appearance of a conflict of interest, that may be disclosed by your 
responses to the above items.
    The first step in avoiding any conflict, or appearance of a 
conflict of interest, is staying aware of situations in which such 
conflicts can arise. I intend to be diligent in monitoring my 
activities with respect to Foundation transactions so that any such 
conflicts can be identified quickly. Annual training offered by the 
Foundation will be helpful in this regard. Once a conflict or 
appearance of a conflict is identified, the second step is disclosure 
to the Chairman of the Board, and to Foundation staff, including the 
Designated Agency Ethics Officer, so that appropriate action can be 
taken. In most cases, when a conflict or apparent conflict is 
determined to exist, recusing myself from the relevant discussion and 
decisionmaking should be adequate. Although I cannot envision any such 
circumstances, I am prepared to resign my position if necessary to 
protect the reputation and integrity of the Foundation.


</pre></body></html>
